No. 19-277
In the

Supreme Court of the United States
__________________

HSBC HOLDINGS PLC, CITIGROUP GLOBAL MARKETS
LIMITED, TENSYR LIMITED, AND BA WORLDWIDE FUND
MANAGEMENT LIMITED, ET AL.,
Petitioners,
v.
IRVING H. PICARD,
__________________

Respondent.

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit

__________________

BRIEF OF AMICUS CURIAE RISA BERMUDA
IN SUPPORT OF PETITIONER
__________________
S. CHRISTOPHER PROVENZANO
Counsel of Record
MICHAEL A. GRANNE
JENNIFER BADER
PROVENZANO GRANNE & BADER LLP
1330 Avenue of the Americas
Suite 23A
New York, NY 10019
(212) 859-3516
chris.provenzano@pgbfirm.com
Counsel for Amicus Curiae
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
INTEREST OF AMICUS CURIAE . . . . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT. . . . . . . . . . . . . . 5
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
I. The Second Circuit Minimized the
International Consequences of Its Decision on
Foreign Parties . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
II. The Second Circuit Minimized the International
Consequences of Its Decision on the Legal
Systems of Foreign Nations . . . . . . . . . . . . . . . . 12
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

ii
TABLE OF AUTHORITIES
CASES
Cambridge Gas Transportation Corp v. Navigator
Holdings plc, (2007) 1 A.C. 508 . . . . . . . . . . . . . 15
Ellefsen v. Ellefsen,
Civil Jurisdiction 1993, No. 202 . . . . . . . . . . . . . . 3
ICO Global Cmmcn’s Ltd.,
[1999] Bda LR 69 . . . . . . . . . . . . . . . . . . . . . . . . . 9
In re Bd. of Dirs. of Hopewell Int’l Ins. Ltd.,
275 B.R. 699 (S.D.N.Y. 2002) . . . . . . . . . . . . . . . 15
In re Gerova Fin. Grp. Ltd.,
482 B.R. 86 (Bankr. S.D.N.Y. 2012) . . . . . . . . 2, 15
In re Millennium Global Emerging Credit Master
Fund Ltd., 474 B.R. 88 (S.D.N.Y. 2012). . . . . . . 15
In re Picard, Tr. for the Liquidation of Bernard L.
Madoff Inv. Sec. LLC,
917 F.3d 85 (2d Cir. 2019) . . . . . . . . . . . . . . . . 6, 7
Lewis v. Eliades,
(2004) 1 W.L.R. 692 . . . . . . . . . . . . . . . . . . . . . . . 3
PwC Bermuda v. Kingate Global Fund Ltd.,
[2011] CA Bda 6 Civ . . . . . . . . . . . . . . . . . . . . . . 16
Re C&J Energy Servs. Ltd.,
[2017] Bda LR 22 . . . . . . . . . . . . . . . . . . . . . 14, 16
Re Celestial Nutrifoods Ltd.,
[2017] Bda LR 11 . . . . . . . . . . . . . . . . . . . . . 14, 16

iii
Re Focus Ins. Co.,
(1997) 1 B.C.L.C. 219 . . . . . . . . . . . . . . . . . . . . . 15
Re ICO Global Commcn’s (Holdings) Ltd.,
[1999] Bda LR 69 . . . . . . . . . . . . . . . . . . . 9, 14, 16
Re Refco Capital Markets Ltd.,
[2006] Bda LR 94 . . . . . . . . . . . . . . . . . . . . . 14, 16
Re Seadrill Ltd.,
[2018] SC Bda 30 Com. . . . . . . . . . . . . . . . . . . . . 16
Rubin v. Eurofinance,
(2012) U.K.S.C. 46 . . . . . . . . . . . . . . . . . . . . . . . 13
SAS Institute v. World Programming Ltd.,
(2018) E.W.H.C. 3452 . . . . . . . . . . . . . . . . . . . . . . 3
Vizcaya Partners Limited v. Picard,
(2016) U.K.P.C. 5 . . . . . . . . . . . . . . . . . . . . . . . . 13
ACTS
Bermuda Companies Act 1981, § 174 . . . . . . . . . . . . 8
Bermuda Companies Act 1981, § 175 . . . . . . . . . . . . 9
Bermuda Companies Act 1981, § 176 . . . . . . . . . . . . 9
Bermuda Companies Act 1981, § 225 . . . . . . . . . . 8, 9
Bermuda Supreme Court Act 1905, § 15. . . . . . . . . . 1
Bermuda Supreme Court Act 1905, § 18. . . . . . . . . . 1

iv
OTHER AUTHORITIES
Practice Direction, Circular No 6 of 2017,
Guidelines for Communication and Cooperation
between Courts in Cross-Border Insolvency
Matters . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Practice Direction, Circular No 17 of 2007,
Guidelines Applicable to Court-to-Court
Communications in Cross-Border Cases . . . . . . 16

1
INTEREST OF THE AMICUS CURIAE1
About Bermuda
Bermuda is a self-governing British Overseas
Territory and common law jurisdiction. Bermuda is
also a major international financial center, providing
services to businesses and investors throughout the
world. Among other financial services, Bermudian
companies provide extensive insurance and
reinsurance services to a significant number of
businesses in the United States. There are also a large
number of investment fund companies incorporated in
or managed or administered from Bermuda. As a
result, despite its relatively small size, Bermuda and
Bermudian law have an outsized impact on the U.S.
economy, and vice versa.
Bermuda law is influenced by and shares
considerable similarities with English law. Bermuda
jurisprudence is, as in most common law jurisdictions,
made up of legislation, common law, and equity,2 and
its legal system is separate and distinct from
England’s, although the final appellate Court for
Bermuda is the Judicial Committee of the Privy
Council, sitting in London. Bermuda has had a written

1

No counsel for a party authored this brief in whole or in part. No
one other than amicus curiae, its members or amicus’s counsel
made a monetary contribution intended to fund the preparation or
submission of this brief. Counsel of record for all parties received
notice at least ten days prior to the due date of amicus’s intention
to file this brief, and the parties have consented to the filing of this
brief.

2

See Bermuda Supreme Court Act 1905, §§ 15 & 18.

2
Constitution since 1968, which guarantees the
independence of Bermuda’s judiciary.
Bermuda’s Relationship with the United States
Bermuda and the United States of America have
had close and strong ties for more than 200 years.
Many U.S. citizens live and work in Bermuda,
including those employed in Bermuda’s international
insurance and reinsurance sector. In addition, since
Bermuda is one of the United States’ closest neighbors
and an attractive tourist destination, Bermuda
welcomes more than half a million American visitors
annually via air, cruise ship, or private sailing vessel.
Bermuda (whether through the United Kingdom or
in its own right) and the United States are parties to
many bilateral and multilateral agreements and
conventions that facilitate interjurisdictional
cooperation, including tax treaties and mutual legal
assistance treaties. Although there is no international
treaty in place between Bermuda and the United
States governing the conduct of international
insolvencies, Bermuda Courts regularly cooperate with
U.S. Courts and regularly receive cooperation from
U.S. Courts in the context of cross-border insolvency
proceedings.3
3

In In re Gerova Fin. Grp. Ltd., 482 B.R. 86 (Bankr. S.D.N.Y. 2012),
for example, the United States Bankruptcy Court of the Southern
District of New York granted Chapter 15 petitions presented by
liquidators appointed by the Supreme Court of Bermuda, noting
that the (then) Chief Justice of Bermuda was “an eminent authority
on cross-border insolvency issues and co-editor of Cross-Frontier
Insolvency of Insurance Companies (2001), as well as co-author
of Cross-Border Judicial Cooperation in Offshore Litigation (2009).”

3
Bermuda Courts generally have been willing to
enforce U.S. court judgments and U.S. arbitration
awards consistently with the common-law and
statutory requirements applicable in Bermuda4 subject
to the provisions of Bermuda’s Protection of Trading
Interests Act 1981.5
Interest of RISA Bermuda
The Restructuring and Insolvency Specialists
Association of Bermuda (“RISA Bermuda”) is a not-forprofit organization of preeminent lawyers and
accountants who practice in the restructuring and
4

One reported example of the Bermuda Courts enforcing a U.S.
monetary judgment at common law is Ellefsen v. Ellefsen, Civil
Jurisdiction 1993, No. 202. There have been other reported cases
in which, on their facts, certain U.S. judgments were not enforced
by the Bermuda courts, since they did not satisfy the common law
requirements. As to foreign arbitration awards, the Bermuda
International Conciliation and Arbitration Act 1993 implements
the New York Convention and the UNCITRAL Model Law on
International Commercial Arbitration into Bermuda law.

5

Bermuda’s Protection of Trading Interests Act 1981 was modelled
on the UK’s Protection of Trading Interests Act 1980. It provides
that a foreign judgment shall not be enforced in Bermuda to the
extent that it is a judgment for “multiple damages” (i.e., double or
treble damages), or in the event that it is a judgment that has been
certified by the Bermuda Government to be “anti-competitive.”
Section 6 of the Protection of Trading Interests Act 1981 also
enables the Bermuda Courts to decline to assist a foreign Court to
collect evidence in Bermuda where the request contravenes the
jurisdiction of Bermuda or Her Majesty’s sovereignty. There have
been no reported cases in Bermuda decided under the Protection
of Trading Interests Act 1981, although Bermuda Courts are likely
to find English decisions such as Lewis v. Eliades, (2004) 1 W.L.R.
692 and SAS Institute v. World Programming Ltd., (2018)
E.W.H.C. 3452 persuasive.

4
insolvency field. RISA Bermuda’s members have a
strong interest in promoting the stability and
predictability of Bermudian law as it relates to the
insolvency and restructuring of companies
incorporated, managed, or doing business in Bermuda.
RISA Bermuda’s members also have an interest in
promoting Bermuda as a reputable international
financial center and in promoting the Supreme Court
of Bermuda as a reliable primary or ancillary forum for
the supervision of a bankruptcy, liquidation, or
restructuring of a Bermuda company.
Many of RISA Bermuda’s members are concerned
by the decision of the United States Court of Appeals
for the Second Circuit at issue here.
The Second Circuit has endorsed an extraterritorial
application of an aspect of U.S. bankruptcy law
pursuant to an argument that it was only applying that
law domestically. By doing so, the Second Circuit is
setting up a conflict with, or at a minimum rendering
more uncertain, the orthodox and natural application
of Bermuda law, by the Courts of Bermuda, to matters
occurring within Bermuda and affecting Bermudian
parties. This might include transactions, liquidations
or corporate restructurings governed by Bermuda law,
involving Bermuda companies and their counterparties
who may have no connection with the United States or
its judicial system.
Because the Second Circuit’s analysis is predicated
on an argument that it was merely interpreting
domestic law rather than applying U.S. law
extraterritorially (as it was), and because it did not
adequately consider or address the international

5
ramifications of its decision, this Court should grant
certiorari.
SUMMARY OF THE ARGUMENT
RISA Bermuda respectfully appears as amicus
curiae to explain the complications associated with the
Second Circuit’s decision from a Bermudian perspective
and to show that the international consequences, which
the Second Circuit minimized in its analysis, are
neither hypothetical nor trivial.
The Second Circuit’s decision is likely to cause
significant uncertainty for Bermudian companies and
their counterparties, where the parties may (1) have
nothing to do with the United States, (2) have
expressly adopted Bermuda law to govern their
transactions and (3) have chosen the jurisdiction of the
Bermuda Courts. This uncertainty means that they
will be required to speculate whether some remote U.S.
bankruptcy could expose them to a contingent risk that
a transaction, valid and binding under Bermudian law,
will be unwound.
This uncertainty will increase risk in every financial
transaction, and increased risk means increased costs
and increased delays. Parties to apparently entirely
Bermudian transactions may now feel compelled to
research remote “upstream” parties to hedge against
the possibility of a U.S. court looking to them to satisfy
a U.S. bankruptcy order. Since the relative
predictability and certainty of Bermuda law provides
one of the very reasons for Bermuda’s success as an
international financial center (including Bermuda’s
success in attracting the capital necessary to provide

6
insurance and reinsurance services to the United
States and other economies), any interference
therewith is potentially detrimental to Bermuda’s
economy.
It is also likely to increase the costs and
complexities associated with every international
insolvency involving Bermuda, as U.S. bankruptcy
trustees and the U.S. Bankruptcy Court are likely to
find themselves competing, rather than cooperating,
with Bermuda Court-appointed liquidators and the
Bermuda Court, each operating by reference to
different legal systems.
RISA Bermuda respectfully submits that the Court
should grant certiorari so that these issues may be
adequately considered and addressed.
ARGUMENT
I. The Second Circuit Minimized the
International Consequences of Its Decision on
Foreign Parties
The Second Circuit held that because a debtor’s
initial transfer of property from the United States is
domestic U.S. activity for the purposes of the relevant
provisions of the Bankruptcy Code, a U.S. Court had
the power to claw back cash from a foreign remote
transferee regardless of the international issues and
interests involved. This conclusion completely
dispensed with the need to consider the application of
the presumption against extraterritoriality, and its
various policy implications, even where there are
multiple subsequent transfers occurring entirely
outside the United States. In re Picard, Tr. for the

7
Liquidation of Bernard L. Madoff Inv. Sec. LLC, 917
F.3d 85, 100 (2d Cir. 2019).
In so doing, the Second Circuit sidestepped
important concerns about international comity. While
it acknowledged that a foreign state has “at least some
interest in adjudicating property disputes” where a
U.S. debtor is also the subject of liquidation
proceedings in a foreign court, it rejected as “not
compelling” the interests of a foreign jurisdiction in
which a different debtor (such as a feeder fund
company incorporated in a jurisdiction like Bermuda)
is in liquidation. Id. at 103–04. Although the District
Court concluded, as a factual matter, that investors in
the foreign feeder funds “had no reason to expect that
U.S. law would apply to their relationships with the
feeder funds,” id. at 105 (citing the district court), the
Second Circuit dismissed these concerns, holding
instead that, while the U.S. recovery actions would
affect the subsequent foreign transferees, “that
consequence should not unfairly surprise them.” Id.
The Second Circuit did not appear to consider the
important consequences of its holding for foreign
sovereigns, foreign courts, and foreign participants in
a foreign bankruptcy, particularly in jurisdictions that
serve as important financial service hubs. Its decision
reduced the interests of a foreign jurisdiction such as
Bermuda to a simple desire “to ensure that the feeder
funds’ creditors can recover as much property as
possible,” noting that “[i]f the Trustee succeeds in these
recovery actions, his success might frustrate the efforts
of those entities’ trustees to recover the same property
in foreign court.” Id. at 104.

8
This is, however, not the sole interest of the
Bermudian courts, as a matter of Bermuda law. The
role of the Bermudian courts is to do justice to the
parties before them, in accordance with the statutory
law, common law, and principles of equity applicable in
Bermuda. And when only Bermudian parties or their
counterparties—who made no effort to avail themselves
of U.S. laws and have no relevant direct connection to
the jurisdiction of the United States—are involved,
they should be permitted to do so without interference.
Bermuda has a well-developed body of bankruptcy
law. In Bermuda, the formal liquidation procedures
available for bankrupt Bermuda companies are
principally contained in the Companies Act 1981 (the
winding up provisions of which are substantially
modelled on the UK’s Companies Act 1948). The
general purpose of the liquidation process is to gather
in and realise assets in order to pay off creditors in
accordance with their rights and priorities as
determined by principles of statutory and common law
and equity.6 If there are any remaining assets, they
may be distributed to the company’s shareholders.
Bermudian law is broadly similar to U.S. law in this
regard. The duties of marshalling and distributing
assets are entrusted to the Official Receiver or another
liquidator (analogous to a trustee in U.S. practice),
subject to the supervision of a Bermuda Court and any
creditors’ committee, and subject to the Official
Receiver’s or the liquidator’s obligation as a fiduciary

6

Sections 174 and 225 of the Companies Act 1981.

9
and Court officer to act honestly and with due care.7
Liquidators in the winding-up of a company have the
power to promote compromises and arrangements,
whether by consensual means or using a Courtsupervised Scheme of Arrangement. Furthermore,
where the company is not already in liquidation, the
winding-up jurisdiction of the court and statutory
machinery may be invoked in order to protect the
implementation of a restructuring.8 A Bermudian
liquidator undertakes all of this with the goal of
recovering assets of the debtor and achieving an
appropriate distribution of the limited assets available
to the creditors in accordance with Bermuda law (with
shareholders only receiving a distribution in the event
of a surplus after payment of all classes of creditors
and liquidation costs and expenses in full).9
But in any bankruptcy or insolvency proceeding, by
definition there is not enough to go around (save in the
most exceptional of circumstances); there must be
trade-offs between competing interests as a liquidator,
subject to the supervision of the Bermuda court, strives
to satisfy competing constituencies. In particular, there
is a trade-off between the competing interests of
facilitating distribution or payment to a wronged
7

Sections 175 and 176 of the Companies Act 1981.

8

This has occurred in many cases in Bermuda, the first reported
one of which was ICO Global Cmmcn’s Ltd., [1999] Bda LR 69.

9

Section 225 of the Companies Act 1981 provides that “subject to
this Act as to preferential payment the property of a company
shall, on its winding up, be applied in satisfaction of its liabilities
pari passu, and subject to such application, shall, unless the byelaws otherwise provide, be distributed among the members
according to their rights and interests in the company.”

10
creditor, recovering assets of the debtor, and respecting
the legal validity of subsequent transactions involving
innocent parties or counterparties that are not
otherwise subject to challenge under relevant statutory
provisions of Bermuda law. The weighing of these
interests in the case of Bermuda companies is a
quintessential policy matter as to which the
jurisdiction of Bermuda has both the right and the
interest to set its own policy to do justice to, and to
protect the reasonable interests of, Bermuda companies
and their counterparties.
Regardless of the broad similarities to U.S.
bankruptcy law and practice, a Bermudian liquidator,
acting under the supervision of the Bermudian courts
and pursuant to Bermudian law, or a Bermuda court
itself, may well reach conclusions very different from
those a U.S. court would reach. This is not an affront to
justice; this is the consequence of different jurisdictions
legitimately having different legislation, different laws,
and different policy priorities.
Against this background, the situation that
concerns RISA Bermuda is this: A U.S. entity transfers
cash to a Bermudian entity. The Bermudian entity uses
cash to pay a subsequent transferee (whether in
Bermuda or outside of Bermuda), with possibly
additional other transactions with “mediate”
transferees, all under Bermudian law. The U.S. entity’s
bankruptcy then sets off a cascade of bankruptcies all
over the globe, including the bankruptcy of the
Bermudian entity that had made the subsequent
transfer. A Bermudian court supervising the
compulsory liquidation of the Bermudian entity

11
carefully sifts the facts and weighs the legality and
equities of any transactions and determines that, under
Bermudian law, the Bermudian transaction should not
be disturbed; the money will not be returned to the
Bermudian debtor. This conclusion is based on all
relevant circumstances, legal provisions, relevant
matters of public policy and the public interest.
The remote transferee, secure in the knowledge that
a competent court in Bermuda —the only jurisdiction
of which it purposefully or knowingly availed
itself—has ratified the transaction after close scrutiny,
organizes its affairs accordingly. That entity then finds
that it must resist enforcement of an inconsistent U.S.
judgment in Bermuda or defend itself in a U.S. court
under a legal regime to which it had not the slightest
notion it was subject.
RISA Bermuda is also concerned by this alternative
possibility: a Bermudian court supervising the
liquidation of the Bermudian entity concludes that the
transaction should be set aside as a matter of Bermuda
law, and the transferee is ordered to repay a sum of
money to the Bermuda liquidator. The transferee
complies with the Bermuda Court’s order (since the
Bermuda Court is the court with competent
jurisdiction), thereby discharging its liability under
Bermuda law. That entity then finds that it must resist
enforcement of an inconsistent U.S. legal proceeding or
a U.S. judgment, brought at the initiative of a U.S.
bankruptcy trustee, arising out of the very same
transaction but giving rise to a duplicative (and
potentially greater) liability.

12
The Second Circuit’s opinion creates a very real risk
of two obviously unfair results. In either case, a
Bermudian or Bermudian-related remote transferee
finds that it cannot rely on the judgment of the only
courts to which it knowingly subjected itself; in the
first instance, it is insecure in its property rights as
adjudicated by a Bermudian court, and in the second,
it is subject to the risk of a double liability being
enforced against it or its assets. Neither consequence
would be reasonable or fair. And both would result
from the extraterritorial application of U.S. law to a
Bermudian transaction.
II. The Second Circuit Minimized the
International Consequences of Its Decision on
the Legal Systems of Foreign Nations
In addition to its effect on foreign parties, the
Second Circuit’s decision is likely to put Bermudian
courts and Bermuda liquidators in a difficult position
from a conflicts of laws perspective. In the situation we
are considering, the Bermudian courts have carefully
considered a matter between two entities properly
subject to their jurisdiction, and which had engaged in
a transaction subject to Bermudian law. They have
then rendered a decision to balance the legal and
equitable interests of those parties consistent with the
law, the public interest, and the public policy
determinations of Bermuda.
The Bermudian courts and the parties before it
might then be faced with an attempt to enforce a
conflicting U.S. court decision that has decided,
without reference, regard or accountability to the
Bermudian legal system, that the Bermudian entities

13
whose case they have already adjudicated must return
cash to a U.S. debtor with whom they have not
transacted any business, purportedly as an exercise of
U.S. domestic law.
In those circumstances, the Bermudian courts
certainly have the power to decline to enforce the U.S.
judgment as being inconsistent with the previous
Bermudian judgment. A Bermuda court may
reasonably conclude that Bermudian public policy does
not allow a U.S. court to exercise jurisdiction over the
parties or the subject matter of the transaction as a
matter of Bermuda’s conflicts of laws rules. Indeed, in
Vizcaya Partners Limited v. Picard, (2016) U.K.P.C. 5,
the Privy Council (following the United Kingdom
Supreme Court’s decision in Rubin v. Eurofinance,
(2012) U.K.S.C. 46) specifically refused to enforce a
U.S. Bankruptcy Court judgment in Gibraltar. The
U.S. Bankruptcy Court judgment had been entered in
default under the anti-avoidance provisions of the U.S.
Bankruptcy Code (including under Section 550 against
certain secondary foreign transferees), in
circumstances where the alleged judgment debtors had
no presence in the United States of America and had
not submitted to the jurisdiction of the U.S.
Bankruptcy Court.
It would be unfortunate if the courts of the U.S. and
the courts of friendly foreign jurisdictions such as
Bermuda were required to be increasingly at odds with
one another, as regards the domestic enforceability of
each other’s judgments, thereby undermining
principles of comity. In the case of Bermuda, the U.S.
courts are not dealing with a hostile or unhelpful

14
jurisdiction, or one in which the rule of law is
unreliable, or one in which the U.S. bankruptcy trustee
would have no other legal options to pursue.
Bermudian courts commonly deal with complex
matters that cross national borders. Even in the
absence of an international treaty regime governing
insolvency, it is routine for Bermudian courts to
coordinate with the courts of other jurisdictions,
including the U.S., under well understood principles of
international comity and common law.
Put simply, the Second Circuit’s decision creates a
potential for conflict between the courts of two
jurisdictions where none is necessary, and where all
the necessary mechanisms for cooperation exist. It is no
hardship to expect a U.S. trustee to utilize the
mechanisms provided for under Bermudian law when
attacking a transaction that has occurred in Bermuda
involving Bermudian parties.
The tools are certainly available. While Bermuda
has no statutory equivalent to Chapter 15 of the U.S.
Bankruptcy Code, section 426 of the UK’s Insolvency
Act 1986, or the UK’s Cross-Border Insolvency
Regulations 2006, the Bermuda Courts have indicated
their willingness, as a matter of common law, to take
into account all the circumstances of the case, including
a company’s place of incorporation and center of main
interests and the forum with the closest connection to
the issues in question.10 The Supreme Court of
10

See Re ICO Global Commcn’s (Holdings) Ltd., [1999] Bda LR 69;
Re Refco Capital Markets Ltd., [2006] Bda LR 94; Re Celestial
Nutrifoods Ltd., [2017] Bda LR 11; Re C&J Energy Servs. Ltd.,
[2017] Bda LR 22.

15
Bermuda has repeatedly confirmed, following the Privy
Council decision in Cambridge Gas Transportation
Corp v. Navigator Holdings plc,11 that as a matter of
common law the Supreme Court of Bermuda may (and
usually does) recognize liquidators appointed by the
court of a debtor’s domicile and the effects of a windingup order made by that court, and has discretion
pursuant to such recognition to assist the primary
liquidation court by doing whatever it could have done
in the case of a domestic insolvency.
There is a long history of successful cooperation
between the U.S. and Bermudian courts under current
law and principles of comity. For example, Bermuda
liquidators of Bermuda companies have applied for
recognition under Chapter 15 of the U.S. Bankruptcy
Code (and its statutory predecessors).12 The Supreme
Court of Bermuda has on a number of occasions issued
letters of request to foreign courts asking for foreign
court recognition of, and assistance to, Bermudian
liquidators of Bermudian companies.13 There have been
a number of restructuring cases in which solvent or
insolvent international companies with a Bermuda
connection have been restructured or liquidated with
the use of parallel schemes of arrangement (or
equivalent insurance business transfer schemes)
11

(2007) 1 A.C. 508.

12

See, e.g., In re Bd. of Dirs. of Hopewell Int’l Ins. Ltd., 275 B.R.
699 (S.D.N.Y. 2002), affirming 238 B.R. 25 (Bankr. S.D.N.Y. 1999);
In re Millennium Global Emerging Credit Master Fund Ltd., 474
B.R. 88, 92 (S.D.N.Y. 2012), affirming 458 B.R. 63 (Bankr.
S.D.N.Y. 2011); In re Gerova,482 B.R. at 96.
13

See, e.g., Re Focus Ins. Co., (1997) 1 B.C.L.C. 219.

16
sanctioned by the Bermudian courts and appropriate
foreign courts.14 There have been a number of cases in
which foreign companies with a Bermudian connection
have been placed into compulsory or provisional
liquidation both by foreign courts in their jurisdiction
of incorporation and by the Supreme Court of
Bermuda, whether on an ancillary basis or a primary
basis.15 The Supreme Court of Bermuda has also issued
various Practice Directions, setting out the guidelines
applicable to court-to-court communications and cooperation in cross-border insolvency cases.16 Prior to
those guidelines, there had been a number of cases in
which protocols had been agreed and approved on an
ad hoc basis.
Moreover, Bermudian statutory and common law
recognize many of the same categories of avoidable
transactions that U.S. law recognizes (though
sometimes under different names): fraudulent
conveyances, fraudulent preferential transfers, postpetition dispositions, unlawful returns of capital,
restitution and unjust enrichment, etc. Each of them
14

See Re ICO Global Commcn’s (Holdings) Ltd., [1999] Bda LR 69;
Re Refco Capital Markets Ltd., [2006] Bda LR 94; Re Celestial
Nutrifoods Ltd., [2017] Bda LR 11; Re C&J Energy Servs. Ltd.,
[2017] Bda LR 22; Re Seadrill Ltd., [2018] SC Bda 30 Com.
15

See, e.g., PwC Bermuda v. Kingate Global Fund Ltd., [2011] CA
Bda 6 Civ; Re Seadrill Ltd., [2018] SC Bda 30 Com.

16

Practice Direction, Circular No 6 of 2017, Guidelines for
Communication and Cooperation between Courts in Cross-Border
Insolvency Matters (adopting into Bermuda law the Judicial
Insolvency Network Guidelines), Practice Direction, Circular No
17 of 2007, Guidelines Applicable to Court-to-Court
Communications in Cross-Border Cases.

17
has its own body of Bermudian law, reflecting the
public policies derived from the statutory and common
law of Bermuda. In some cases, the particular outcome
may be more favorable to a liquidator, in others less
favorable. But in every decided case, the outcome
reflects Bermudian policy judgments—as determined
by the Bermuda courts, including the Privy Council as
Bermuda’s final appellate court.
CONCLUSION
In conclusion, for the reasons set out above, RISA
Bermuda respectfully submits that the Second Circuit
paid insufficient regard to the interests of non-U.S.
jurisdictions such as Bermuda, including the interests
of Bermuda’s citizens, Bermuda’s companies, and the
Bermuda courts when it deemed the application of U.S.
law purely domestic even if it reversed multiple
transactions and transfers that were between foreign
parties, under foreign law, and with no apparent
connection to the United States.
Substantial commercial uncertainty is likely to
result in Bermuda as a result of the Second Circuit’s
decision, because (1) liquidators appointed over
Bermuda companies by the Supreme Court of Bermuda
are likely to find themselves in
conflict with
bankruptcy trustees appointed by U.S. Courts with
respect to overlapping or competing claims to the same
or related assets or liabilities; (2) contracting
counterparties with an investment fund company or
other company incorporated in Bermuda, whose
contracts are governed by Bermuda law and subject to
Bermuda jurisdiction, might find themselves
unexpectedly exposed to the contingent liabilities

18
associated with the extraterritorial application of U.S.
bankruptcy law, and (3) different results flowing from
the application of Bermuda insolvency law and U.S.
insolvency law in related cases give rise to the risk of
double liability and inconsistent judgments.
RISA Bermuda therefore respectfully urges this
Court to grant certiorari so that the issue of
extraterritoriality and the consequences to
international comity may be more fully considered.
Respectfully submitted,
S. CHRISTOPHER PROVENZANO
Counsel of Record
MICHAEL A. GRANNE
JENNIFER BADER
PROVENZANO GRANNE & BADER LLP
1330 Avenue of the Americas
Suite 23A
New York, NY 10019
(212) 859-3516
chris.provenzano@pgbfirm.com
Counsel for Amicus Curiae
RISA Bermuda

